No. 20-1519

IN THE SUPREME COURT OF THE UNITED STATES
_________
ISMAEL RIVERA, PETITIONER
v.
GLENNIS GELABERT-DE-PEGUERO; M. P.-R, MINOR; S. P.-A, MINOR; MARIA CONFESORROSARIO; NANCY ORFELIA-ALVAREZ
Respondents.
_________
MOTION TO DISMISS UNDER RULE 46.1
TO THE SUPREME COURT OF THE UNTED STATES,
OFFICE OF THE CLERK OF COURT:
1. The Petitioner in the instant matter, Ismael Rivera, filed a Petition for a writ of
certiorari in the above-entitled case on April 19, 2021. The petition was placed on the
docket on April 29, 2021 as No. 20-1519.
2.

On July 8, 2021, the Petitioner and the Respondents executed a Stipulated

Settlement Agreement. The written settlement was executed by the petitioner and the
respondents as well as all the original parties to the District and Court of Appeals Courts
proceedings as “Joint Motion for Entry of Judgment and/or Amended Judgment by
Stipulation.” The Document is attached herein.
3. The attached Joint Motion requests that all claims be dismissed with prejudice
pursuant to the terms of the Stipulated Settlement Agreement, specifying the terms for
payment of the settlement consideration and waiving any costs to any of the parties.
There are no dues due to the Clerk. The Stipulated Settlement Agreement is executed
by Counsel for Respondents (Plaintiffs in the original action) and Counsel for Petitioner
(Police Officer Rivera).

4. Accordingly, the Petitioner respectfully requests that the case be dismissed by the
Clerk of Court, without further reference to the Court, under Supreme Court Rule 46 (1).
WHEREFORE, the Petitioner requests that the case be dismissed by the Clerk of
Court, without further reference to the Court, under Supreme Court Rule 46 (1).
Executed on July 14, 2021, at San Juan, Puerto Rico.

s/Angel A. Valencia-Aponte
ÁNGEL A. VALENCIA-APONTE
Counsel of Record
BAR NUMBER 144563
Parques de San Ignacio
E-24, Fifth Street
San Juan, Puerto Rico 00921
(787) 245-0009
avalencia@aavalaw.com
Counsel for Petitioner

2

